                                                                                         July 9, 2014

Mr. David T. Seaton
Chairman and Chief Executive Officer, Fluor Corporation
6700 Las Colinas Blvd.
Irving, TX 75039


Dear Mr. Seaton:

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) was established
by Congress to prevent and detect waste, fraud, and abuse in programs and operations relating to
the reconstruction of Afghanistan. As part of a human trafficking initiative begun by my office, SIGAR
special agents have been participating in enforcement sweeps and conducting interviews with Third
Country National (TCN) workers employed by the U.S. military in Afghanistan.

Given SIGAR’s ongoing efforts, I was disturbed to learn that some Department of Defense
contractors, subcontractors, and their recruiters allegedly may be engaging in or knowingly
permitting the use of improper and deceptive recruitment practices in connection with contracts and
subcontracts performed for the U.S. Army’s Logistics Civil Augmentation Program (LOGCAP) in
Afghanistan.

A recent “Fault Lines” documentary broadcast by the Al Jazeera television network raised troubling
allegations concerning your company’s recruitment of TCNs for work at U.S. military bases in
Afghanistan. These TCNs, who are mainly from India, Nepal, and other parts of South Asia, reportedly
paid thousands of dollars each to recruiters who supply foreign workers to Ecolog, a subcontractor of
Fluor, to obtain jobs at U.S. military bases.

Such recruiting fees are prohibited by 22 U.S.C. § 7104(g), Joint Contracting Command
Iraq/Afghanistan Clause 952.222-0001, and the zero-tolerance policy regarding trafficking in
persons outlined in FAR 22.1703 and Executive Order 13627. Moreover, the documentary alleged
that many of these foreign workers are housed in overcrowded conditions for long periods of time by
recruiters in Dubai or elsewhere, prior to being transferred to jobs at U.S. military bases in
Afghanistan.

My office has interviewed workers’ advocates and lawyers who indicate that TCN workers usually
must borrow substantial sums of money at high interest rates in their home countries in order to pay
these recruitment fees. In some cases, the substantial sums that the TCN workers borrow to pay
these fees will take many months of work to pay back. The high levels of indebtedness that often
result may make it difficult for these TCNs to leave their jobs.

Officials representing Fluor told SIGAR investigators that more than 2,400 of these TCN workers—
who were interviewed at random—reported to company officials that that they paid such recruiting
fees. Some of these employees report paying thousands of dollars.

SIGAR special agents in Afghanistan have also gathered information on allegations of other improper
recruitment practices, as well as mistreatment of TCNs working on U.S. military bases. To aid SIGAR
in its inquiry, please provide the following information and related documents:
    1. Copies of all Fluor policies addressing human trafficking, and describe all efforts by Fluor to
       detect and deter trafficking on LOGCAP contracts.

    2. Identify which Fluor officials are accountable for your company’s compliance with federal
       laws and regulations against human trafficking.

    3. Identify any investigative process Fluor undertakes when it finds evidence of human
       trafficking violations or related abuses involving TCNs, including all actions Fluor took in
       response to the 2,400 interviews indicating the payment of recruitment fees.

    4. All records of Fluor disclosing evidence of human trafficking to a contracting officer or other
       U. S. Government official. This response should include any records of Fluor taking
       disciplinary action against a subcontractor, recruiter, employee, or agent for human
       trafficking violations.

    5. A list of all recruitment firms which Fluor uses to recruit TCNs for work in Afghanistan, the
       countries where these recruiters operate, and all efforts by Fluor to ensure that these
       recruiters comply with U.S. laws against human trafficking.

    6. All records of communications between Fluor and Ecolog, DynCorp, or any other entity
       relating to the Al Jazeera network documentary “Fault Lines: America’s War Workers.”
       Records responsive to this request include, but are not limited to, e-mails, memoranda,
       letters, notes from telephone conversations, and any recordings or minutes made of
       meetings between Fluor, Ecolog, DynCorp and any other person, including any civilian or
       military employee of the U.S.

    7. Identify any instances of TCN employees recruited directly by Fluor, or through a
       subcontractor or recruiter used by Fluor, who were found to have been paid a different salary
       than that promised by the recruiter, or were sent to a different job location than that for
       which they were recruited.

    8. The number of TCN employees who have worked for Fluor and/or its subcontractors in
       support of LOGCAP task orders in Afghanistan who were hired by Fluor directly, and the
       number who were hired through subcontracts or by payments to independent recruiters.

    9. The total number of TCNs Fluor has recruited to work on contracts supporting U.S. and
       coalition operations in Afghanistan and the number of recruits that remain there as of July 8,
       2014.

    10. All efforts to ensure that subcontractors of Fluor comply with trafficking-related laws,
        regulations, and contract clauses. These should include records of any action taken against a
        subcontractor or Fluor employee for violation of such laws, regulations, and contract clauses.

    11. Make available for inspection all pay records for Fluor’s TCN workers in Afghanistan for the
        past three years.

    12. The locations and names of any so-called “man camps” or other foreign worker holding
        facilities where TCNs recruited by your firm or its contract recruiters are housed. Also indicate
        the longest amount of time that any TCN workers have been housed in these facilities before
        being dispatched to jobs in Afghanistan? Who inspects these facilities and are records kept
        of such inspections? What are your firm’s policies for the proper care and feeding of these
        TCN workers?



SIGAR-14-78-SP Inquiry Letter: Recruitment of Third Country Nationals for Afghan Work              Page 2
Please respond in writing to this request by July 23, 2014. Thank you in advance for your
cooperation. These requests are made pursuant to the Inspector General Act of 1978, as amended,
and section 1229 of the National Defense Authorization Act for Fiscal Year 2008, as amended.

Should you have any questions or need additional information, please have your staff contact Jack
Mitchell, Director of Special Projects at                             or                .


                                                                        Sincerely,




                                                                        John F. Sopko
                                                                        Special Inspector General
                                                                         For Afghanistan Reconstruction

CC:

Linda Dixon, CONUS Program Manager
 Combating Trafficking in Persons Task Force
 U.S. Department of Defense

Sam Yousef, CONUS Program Manager
 Combating Trafficking in Persons Task Force
 U.S. Department of Defense




SIGAR-14-78-SP Inquiry Letter: Recruitment of Third Country Nationals for Afghan Work                     Page 3
